HHS/OIG, Audit - "Review of Medicaid Eligibility in Florida,"
(A-04-06-00020)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
Medicaid Eligibility in Florida," (A-04-06-00020)
March 6, 2007
Complete Text of Report is available in PDF format (734 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine the extent to which Florida made Medicaid payments on behalf of beneficiaries who did not meet Federal and State eligibility requirements. The audit period covered January 1 through June 30, 2005, when the State made more than 26 million payments totaling $3.4 billion ($2 billion Federal share) on behalf of Medicaid beneficiaries.
The State generally made Medicaid payments on behalf of beneficiaries who met Federal and State eligibility requirements and provided adequate documentation of eligibility determinations. OIG attributes the low number of eligibility and documentation errors to the effectiveness of the Florida Department of Children and Families’s (DCF) policies and procedures.
OIG recommends that DCF use the results of this review to help ensure compliance with Federal and State Medicaid eligibility requirements. Specifically, DCF should continue to verify eligibility information and maintain appropriate documentation in all case files. DCF agreed.